OFFICE OF INSPECTOR GENERAL

             Audit Report
  Fiscal Year 2008 Financial Statement Audit
            Letter to Management


              Report No. 09-02
               March 24, 2009




 RAILROAD RETIREMENT BOARD
                     UNITED STATES RAILROAD RETIREMENT BOARD

                                   OFFICE OF INSPECTOR GENERAL




                                                                    March 24, 2009


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 6, 2008, except for matters relating to the fair
market value of the net assets of the National Railroad Retirement Investment
Trust as of September 30, 2008, as to which the date was November 17, 2008.
We performed our audit in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance as applicable to the scope of our
audit. 1 We have not considered internal control since we obtained sufficient
appropriate audit evidence to support the audit opinion on November 6, 2008;
internal control was not among those matters to which we gave consideration
between November 6th and November 17th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses and significant deficiency in
conjunction with our opinion on the financial statements. However, neither this
letter, nor the attached memorandum, modifies our report dual dated as of
November 6, 2008 and November 17, 2008, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.




1
 See our report on the RRB’s financial statements for a full description of the scope and
methodology.



844 N RUSH STREET CHICAGO IL 60611-2092                                    Printed on recycled paper with soy ink
In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the
RRB’s control objectives is the responsibility of management. Because of
inherent limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                 Very truly yours,


                                                Original Signed by …

                                                 Martin J. Dickman
                                                 Inspector General


Attachments

cc: V.M. Speakman, Jr., Labor Member
    Jerome F. Kever, Management Member
    Kenneth P. Boehne, Chief Financial Officer
    Dorothy Isherwood, Director of Programs
    Steven A. Bartholow, General Counsel
    Frank J. Buzzi, Chief Actuary
    Beatrice E. Ezerski, Secretary to the Board




                                         2
Letter to Management                                                               Page 1
                           Memorandum on Internal Control
                                 Table of Contents


MATERIAL WEAKNESSES AND SIGNIFICANT DEFICIENCY

  Material Weaknesses

              Information Security                                            3
              Financial Reporting                                             3

  Significant Deficiency

              Reconciliation of Benefit Payment Subsystems                    4
              OIG Recommendation and Management’s Response                    5


MATTERS INVOLVING INTERNAL CONTROL THAT, IN THE AGGREGATE,
REPRESENT A MATERIAL WEAKNESS


PREVIOUSLY REPORTED WEAKNESSES PERSIST

  Transaction Documentation Needs Improvement                                 7


  Controls Over Report Preparation Are Not Fully Effective                    8


  Additional Controls Are Needed to Ensure Compliance with Requirements       10



ADDITIONAL WEAKNESSES IDENTIFIED DURING FY 2008

  Review and Approval of Vouchers Needs Improvement                           12

              Benefit Payment Recording                                       12
              Benefit Payment Reimbursement                                   13
              OIG Recommendation and Management’s Response                    13

  Quality Assurance Process for Voucher Preparation Not Yet Fully Effective   13

              OIG Recommendations and Management’s Response                   14
Letter to Management                                                       Page 2
                        Memorandum on Internal Control
                              Table of Contents

OTHER MATTERS INVOLVING INTERNAL CONTROL

  Implementation of the Modified Cash Basis of Accounting             15


  Accounting for Employee Benefits Could Be Enhanced                  16

              OIG Recommendation and Management’s Response            16

  Password Protection Not Fully Effective                             16

              OIG Recommendation and Management’s Response            17

  Separation of Duties for FFS Administration Sometimes Over-ridden   17

              FFS System Administrator Approves Some Transactions     17
              Separation of Duties Is Sometimes Circumvented          18
              OIG Recommendations and Management’s Response           18

  Controls Over Social Insurance Reporting Needs Improvement          18

              OIG Recommendations and Management’s Response           19

  Documentation of Legal Representation Process Needs Improvement     19

              OIG Recommendation and Management’s Response            20

  Medicare Premium Penalty Rates at Risk of Error                     20

              OIG Recommendations and Management’s Response           21


ATTACHMENTS

  Management’s Response – Bureau of Fiscal Operations                 22


  Management’s Response – Bureau of the Actuary                       25


  Management’s Response – Office of General Counsel                   26


  Management’s Response – Office of Programs                          27
Letter to Management                                                                       Page 3
                            Memorandum on Internal Control

MATERIAL WEAKNESSES AND SIGNIFICANT DEFICIENCY

In conjunction with our opinion on the RRB’s financial statements for the fiscal
years ended September 30, 2008 and 2007, we reported the following material
weaknesses and significant deficiency.

Material Weaknesses

Information Security

During fiscal year (FY) 2008, the Office of Inspector General (OIG) evaluated
information security pursuant to the provisions of the Federal Information Security
Management Act.2 Our review disclosed continued weaknesses in many areas of the
RRB’s information security program. Significant deficiencies in program management
and access controls make the agency’s information security program a source of
material weakness in internal control.

RRB efforts to strengthen information security continue and progress is being made;
however, previously identified significant deficiencies in access controls, risk
assessments, and periodic testing and evaluation continue to exist. In addition, the
agency’s information security program is not yet fully compliant with current
requirements for risk based policies and procedures, a certification and accreditation
program, or a comprehensive remedial action process.

Agency management is working to address the weaknesses in its information
security program. Although some progress has been made, much work remains to
be completed.

Financial Reporting

We first reported this control deficiency in the report on internal control issued with
our opinion on the RRB’s FY 2006 audit of the RRB’s financial statements.
Management action has not fully addressed the underlying cause and the condition
has deteriorated. Although we observed notable efforts to strengthen internal
control over financial accounting during FY 2007, we find that the RRB has been
unable to sustain that improvement during FY 2008. In addition, a quality
assurance process implemented during FY 2007 has not proven to be fully
effective.

An effective control structure allows management and/or employees, in the normal
course of performing their assigned functions, to prevent or detect misstatements on
a timely basis.


2
 “Fiscal Year 2008 Evaluation of Information Security at the Railroad Retirement Board,” OIG Report
#08-05, September 30, 2008
Letter to Management                                                                      Page 4
                            Memorandum on Internal Control

The Bureau of Fiscal Operations (BFO) is responsible for preparing agency financial
statements and publishing the RRB’s annual performance and accountability report.
During our FY 2006 audit, we observed that existing procedures and controls over
the financial reporting process needed to be updated to fully ensure the quality of
the RRB’s response to the expanding responsibilities and short timeframes inherent
to the Federal financial reporting process. We also observed that the existing
control framework was overly reliant on the OIG’s annual audit of the financial
statements to ensure the completeness and accuracy of the performance and
accountability report.

During FY 2007, we found the agency reporting process much improved by the
efforts of BFO management and staff. BFO responded to the OIG’s prior year
finding by implementing OIG-recommended corrective actions and by implementing
an enhanced year-end financial statement review process of their own design.

During our FY 2008 audit, we identified material transactions that were recorded
incorrectly which were not detected and corrected timely because the primary
control, supervisory review and approval of transactions, is not operating as
designed. As a result, financial accounting controls cannot be relied upon to ensure
that material errors will be detected to prevent misstatements in financial reporting.
In addition, controls over financial statement preparation are not fully effective.


Significant Deficiency

Reconciliation of Benefit Payment Subsystems with the General Ledger

Current accounting procedures do not provide for periodic reconciliation of the
general ledger with the benefit payment systems in which those transactions
originate. There is no compensating control that would provide similar assurance
concerning the completeness of recording and reporting for benefit payment
expense which exceeded $10 billion during FY 2008.

Significant accounts should be reconciled to the general ledger timely; the lack of
such reconciliations represents a control deficiency. The detailed records
concerning payments adjudicated and issued is stored in various automated
systems that support the benefit payment process. Benefit payment activity is
manually recorded in the general ledger from summary data originating in other
systems.

This weakness was brought to management’s attention in connection with earlier
audits. 3 Upon detailed review, management did not implement the recommended
3
 “Review of Internal Control Over Financial Accounting for Debt Recoveries,” OIG Audit Report #00-
16, September 29, 2000, page 10.

“Letter to Management,” OIG Audit Report #02-07, February 8, 2002, page 5.
Letter to Management                                                          Page 5
                        Memorandum on Internal Control

reconciliation process citing the inability of existing benefit payment subsystems to
support a cost-effective control and reconciliation process. Since that time, the OIG
has identified a more cost-effective reconciliation process. RRB financial managers
have been receptive to reconsidering the issue and have agreed to study the OIG’s
suggestion.

Recommendation

We recommend that BFO:

       1. reconcile benefit payments as recorded in the general ledger to the
          benefit payment subsystem.

Management’s Response

BFO has agreed to implement a reconciliation process. The full text of
management’s response is presented as Attachment 1 to this memorandum.
Letter to Management                                                            Page 6
                        Memorandum on Internal Control

The individual matters that contributed to our overall finding of a material weakness
in internal control over financial reporting are described in detail in the following
section of this memorandum.

MATTERS INVOLVING INTERNAL CONTROL THAT, IN THE
AGGREGATE, REPRESENT A MATERIAL WEAKNESS

During our FY 2008 audit, we identified material transactions that were recorded
incorrectly. These errors were not detected and corrected timely because the
primary control, supervisory review and approval of transactions, is not operating as
designed. We also observed that many of the issues that created the significant
deficiency in financial reporting cited in our FY 2006 and FY 2007 Letters to
Management had not been corrected. As a result, financial accounting controls
cannot be fully relied upon to ensure that material errors will be detected to prevent
misstatement in financial reporting.

BFO advised us that during FY 2008, they had taken action to implement OIG
recommendations to correct control deficiencies previously reported in the FY 2006
and FY 2007 Letters to Management. BFO provided training on voucher
preparation, updated their accounting procedures guide to include detailed
instructions and examples of accounting transactions, developed a checklist and
review process to ensure the accuracy of financial statement preparation and
developed a line of responsibility to ensure separation of duties. In addition, BFO
refined their quality assurance process for vouchers.

Although BFO has worked to correct the control deficiencies in financial reporting
we find that their actions have not fully addressed the underlying cause and the
condition persists in the following areas:

   •   transaction documentation needs improvement,
   •   controls over report preparation are not fully effective, and
   •   additional controls are needed to ensure compliance with requirements.

During the current-year audit we identified the following additional control
weaknesses that indicate the persistence of a material weakness in internal control
over financial reporting:

   •   review and approval of vouchers needs improvement, and
   •   the quality assurance process for voucher preparation is not yet fully
       effective.
Letter to Management                                                                    Page 7
                           Memorandum on Internal Control

Previously Reported Weaknesses Persist

During the audit, we also observed that key control weaknesses previously reported
had not been corrected. In general, the inability to correct, or sustain correction of a
previously reported significant deficiency is an indicator of material weakness. In
addition, our audit disclosed weaknesses in controls over compliance with
applicable requirements for the form and content of financial statements that
resulted in revisions to the statement of budgetary resources. The details of our
findings follow.

Transaction Documentation Needs Improvement

We previously recommended that BFO:

        instruct staff on the proper documentation needed to support
        transactions prior to the preparation of a voucher, the need to
        evidence proper voucher preparation even when automated
        signatures are used, and the need for accurate and consistent
        documentation to support journal vouchers. 4

In response to our recommendation, BFO conducted training for accounting staff
and documented guidance for voucher preparation.

During the audit, we observed that the previously identified control deficiency in
voucher documentation persists. We identified vouchers with insufficient
documentation to support transactions recorded in the general ledger. Some of the
exceptions include:

    •   nine vouchers supporting a total of $2.5 billion in cash advances from the
        U.S. Treasury did not include documentation confirming receipt prior to
        recording;
    •   two vouchers supporting investment of $538 million cash in U.S. Treasury
        securities did not include confirmation of the investment;
    •   two vouchers supporting investment of $570 million cash in U.S. Treasury
        securities did not include a copy of the memorandum authorizing the
        transaction;
    •   one voucher supporting a $4 million inter-fund transfer was not supported by
        a memorandum authorizing the transaction;
    •   an authorizing memorandum supporting recording of $136 million
        transferred-in from the National Railroad Retirement Investment Trust was
        undated;


4
 “Fiscal Year 2007 Financial Statement Audit Letter to Management,” OIG Audit Report #08-01,
March 6, 2008, Recommendation 11.
Letter to Management                                                                   Page 8
                           Memorandum on Internal Control

    •   two authorizing memoranda supporting redemption of $68 million in
        investments were dated after the date of redemption;
    •   four vouchers that support recording for over $956 million in transactions
        show a supervisory approval dated prior to the date that the voucher was
        signed by the preparing accountant;
    •   nine vouchers that support recording for $1.9 billion in transactions were
        entered into the general ledger based on document approvals applied by
        lower graded staff than required by applicable procedure;
    •   documentation supporting the need to transfer funds was missing evidence
        of the third approval for $20.7 million recorded on 11 vouchers, and three
        other vouchers totaling $11.4 million omitted that documentation entirely; and
    •   documentation for one voucher was incomplete with respect to $1.4 million
        because BFO did not return an incomplete funds breakdown form to the
        originating bureau.

In addition, we questioned charges of $15.3 million posted to the general ledger
before BFO had verified that these costs had been properly charged to the RRB.
We also questioned the reversal of an $843,000 accrual that was not adequately
supported by the documentation attached to the voucher.

Because our prior recommendation for corrective action is pending; the OIG has no
additional recommendations to offer at this time.


Controls Over Report Preparation Are Not Fully Effective

We previously recommended that BFO:

         determine the cause of the errors identified during our audit, whether
         existing controls were in operation [throughout the year], and whether
         additional controls may be required to ensure that the financial
         statements, notes, and supporting schedules are properly [prepared]. 5

In response to our recommendation, BFO created a checklist addressing financial
statement preparation and selected notes. We evaluated the effectiveness of its
implementation and found that the previously identified conditions persist.
During the audit, we identified errors in the financial statements that were not
disclosed by BFO’s checklist because the checklist does not prompt for agreement
between the financial statements and the supporting documentation, or between the
financial statements and related note disclosures.


5
 “Fiscal Year 2007 Financial Statement Audit Letter to Management,” OIG Report #08-01,
March 6, 2008, Recommendation 9. The text presented above has been corrected. Corrected text is
presented in square brackets.
Letter to Management                                                               Page 9
                          Memorandum on Internal Control

During our audit we identified differences between the financial statement
presentation and BFO’s supporting documentation which required additional audit
procedures to reconcile the differences and confirm the accuracy of the statements.
We identified a discrepancy of $3.2 billion between BFO’s supporting workpapers
and the audited Statement of Budgetary Resources. We also identified a
$3.4 million discrepancy between the support and the required supplementary
information disaggregating budgetary resources.

The BFO working papers are submitted as evidence for the sources of data and
how they have been assembled into the final financial statement presentation as
delivered for audit. Discrepancies between the two indicate (1) the lack of an
effective review process and (2) the existence of some other undocumented
process that may have been operating when the statements were prepared.

With respect to the accuracy of the financial presentation, our audit identified
several notes to the financial statements that did not agree with the amounts
recorded in the general ledger or reported in the financial statements. These errors
required correction prior to publication.

We identified discrepancies between the audited balance sheet and the related note
disclosures of intra-governmental transactions with the Social Security
Administration and the Centers for Medicare and Medicaid Services. These
discrepancies amounted to $200 million and $400,000 respectively. In addition the
details of RRB’s fund balance with Treasury disagreed with the audited statement of
budgetary resources, under-reporting the “available” and “unavailable” components
of that balance by $100,000 and $900,000 respectively, thus over-reporting the
“obligated balance” not yet disbursed by approximately $1 million.

We also observed that certain controls over the financial statement preparation
process had not been operating as designed during interim reporting periods. For
example, BFO did not maintain evidence of the formal review and approval of the
Balance Sheet and Statement of Net Cost for interim financial statements and that
all adjusting entries were not subject to the same type of approval process.

In addition, during our audit, we identified differences between amounts recorded in
the spreadsheets created to establish certain beginning balances for financial
reporting and the balances as reported in the general ledger. There is also an
inadequate audit trail for some prior-year balances. Although the discrepancies and
lack of audit trail did not result in errors in the current-year financial statements, they
do indicate a weak control environment and increased risk of undetected errors.

The OIG’s prior recommendation for corrective action is pending for additional
corrective action by management; no additional recommendations will be offered at
this time.
Letter to Management                                                                     Page 10
                           Memorandum on Internal Control

Additional Controls Are Needed To Ensure Compliance with Requirements

We previously recommended that BFO:

        develop more detailed procedures for the change identification process used
        to update the form and content of the RRB’s performance and accountability
        report, or replace it with a more comprehensive identification of
        requirements. Whichever method BFO uses should be supported by
        controls that include at least one level of supervisory approval and retention
        of supporting documentation. 6

In response to our recommendation, BFO documented its procedures for the review
of authoritative guidance for the purpose of identifying changes.

During the audit, we determined that the previously identified control deficiencies
with form and content requirements persist. We identified instances of non-
compliance or inadequate controls, which include the following issues:

    •   BFO does not have a formal review process of the crosswalks used in the
        preparation of agency financial statements;
    •   the note disclosure for “other liabilities” did not include all the details required
        by Office of Management and Budget (OMB) Circular A-136;
    •   the legal representation schedule did not include contact information as
        required by OMB Circular A-136; and
    •   BFO’s procedure to identify and document changes in authoritative guidance
        does not always provide evidence that the changes have been implemented.

In addition, the fiscal year-end Statement of Budgetary Resources (SBR) submitted
for audit was not compliant with U. S. Generally Accepted Accounting Principles
(GAAP) and required extensive revision to obtain an unqualified auditor’s opinion.

Early in FY 2008 OMB requested that the RRB change the budgetary accounting
treatment for certain material transactions exceeding $3 billion. As a result, the
FY 2007 SBR needed to be restated to provide comparability with the FY 2008
presentation. When BFO restated the FY 2007 SBR, they did not fully evaluate the
impact of the change in accounting treatment which resulted in an SBR that did not
properly reflect all transactions and was not compliant with the Treasury crosswalk.
Responsible management advised the OIG that they had determined that a partial
restatement would be sufficient. However, the OIG was not advised of this
determination until after questioning the manner in which the restated SBR had
been prepared. Ultimately, BFO needed to revise the SBR to obtain an unqualified
opinion because the statement as originally drafted was not compliant with GAAP.

6
 “Fiscal Year 2006 Financial Statement Audit Letter to Management,” OIG Report #07-01,
February 9, 2007, Recommendation 11.
Letter to Management                                                        Page 11
                        Memorandum on Internal Control


We believe the underlying cause of the non-compliant statements was weak
controls and a lack of understanding of the potential impact of agency decisions on
the audit process and the auditor’s opinion.

A prior recommendation for corrective action is pending; the OIG has no additional
recommendations to offer at this time.
Letter to Management                                                         Page 12
                        Memorandum on Internal Control

ADDITIONAL WEAKNESSES IDENTIFIED DURING FY 2008

Earlier in this memorandum (see page 7), we discuss the need for improvement in
the documentation that supports transactions recorded in the general ledger. This
weakness in control was initially identified during FY 2006 and again reported in
connection with our audit of the FY 2007 financial statements. Although the prior
finding was based only on our observation of the operation of internal control; during
FY 2008, we identified transactions that were not correctly recorded.

The following sections of this memorandum describe the errors identified during
FY 2008 and our evaluation of agency efforts to implement a quality assurance
process for the documentation that should support transaction recording. We
believe that the weaknesses in documentation, the errors in general ledger
recording and the need for a strengthened quality assurance process are closely
related.

Review and Approval of Vouchers Needs Improvement

During our audit, we identified the following errors in benefit payment recording
which we attribute to a weak review and approval process. On page 7 we reported
that the documentation supporting general ledger recording of transactions
continues to need improvement. Review and approval is a key part of controlling
transactions recorded in the general ledger.

Benefit Payment Recording

As part of the summarization process, BFO enters various amounts into electronic
spreadsheets to facilitate computations needed for general ledger recording. Input
errors and formula errors resulted in the following general ledger recording errors:

   •   $9.9 million overstatement in the Railroad Retirement Supplemental Account
       and an understatement of $31.3 million in the Railroad Retirement Account;
       and
   •   $703,648 overstatement in the unemployment benefit expense account and
       an understatement of the same amount in the sickness benefit expense
       account as a result of errors made on nine vouchers.
Letter to Management                                                          Page 13
                         Memorandum on Internal Control

Benefit Payment Reimbursement

We also identified an error which resulted in an under-reimbursement of $3,000
from the Social Security Administration. The RRB disburses Social Security
benefits to those annuitants who are also entitled to a Social Security benefit at the
same time it pays Railroad Retirement benefits. BFO requests reimbursement from
the Social Security Administration for the amounts disbursed. During FY 2008,
calculation errors made by BFO staff resulted in the under reimbursement of funds
and a related understatement of the general ledger account balance.

Recommendation

We recommend that BFO:

       2. ensure that the procedure for voucher approval includes tests of voucher
          accuracy.

Management’s Response

BFO has agreed to ensure that the procedure for voucher approval includes tests of
voucher accuracy. The full text of management’s response is presented as
Attachment 1 to this memorandum.

Quality Assurance Process for Voucher Preparation Not Yet Fully Effective

In FY 2007, BFO responded to an OIG recommendation by implementing a
quality assurance process for voucher preparation. During FY 2008, BFO
took action to further strengthen the process by reducing the number of
acceptable errors, increasing the number of vouchers subject to review and
randomly sampling from among all vouchers that support general ledger
recording. BFO also conducted training in voucher preparation and provided
a listing of required voucher documentation.

Although BFO has strengthened its quality assurance process for voucher
preparation, our current-year assessment of the adequacy of voucher
documentation (see page 7) has led us to conclude that the process is not fully
effective. The current quality assurance process is not fully effective because it
does not establish a desirable threshold for correct transactions and does not
employ an accepted statistical methodology for assessing error rates.

During our review we also observed that the listing of required voucher
documentation was incomplete and does not provide for retention of sufficient
documentation in all cases.
Letter to Management                                                     Page 14
                       Memorandum on Internal Control


Recommendations

We recommend that BFO:

      3. implement a statistical methodology to measure the quality of voucher
         preparation; and
      4. review the listing of required voucher documentation to ensure BFO staff
         will have reference to complete requirements.

Management’s Response

BFO has agreed to implement a statistical methodology to measure the quality of
voucher preparation. They have also agreed to review and update the listing of
required voucher documentation. The full text of management’s response is
presented as Attachment 1 to this memorandum.
Letter to Management                                                                     Page 15
                           Memorandum on Internal Control

OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the level of
a material weakness or significant deficiency, either individually or in the aggregate,
they represent areas in which control weaknesses increase the risk of error or
mishandling.

The details of our observations and recommendations for corrective action follow.

Implementation of the Modified Cash Basis of Accounting

We previously recommended that BFO:

         review the applicable standard and make specific documented
         determinations concerning how the modified cash basis of accounting
         impacts the accounting and reporting of tax revenue. 7

In response to our recommendation, BFO updated the RRB Accounting Procedures
Guide, which cites Statement of Federal Financial Accounting Standard No. 7,
Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting, paragraphs 51 and 172 to support
their current accounting treatment for tax refunds. While paragraph 51 does state
that cash refunds should be based on repayments of taxes during the period,
paragraph 52 calls for an accrual adjustment, which modifies collections and
refunds to determine the amount of revenue recognized. Paragraph 57 goes on to
explain that a payable for refunds should be recognized when amounts are
measurable and legally payable.

During our audit we determined that the previously identified condition persists.
BFO has not provided specific documented determinations as to whether or not the
refund amount confirmed by Treasury meets the measurable and legally payable
criteria.

A prior recommendation for corrective action is pending; the OIG has no additional
recommendations to offer at this time.




7
 “Fiscal Year 2007 Financial Statement Audit Letter to Management,” OIG Report #08-01,
March 6, 2008, Recommendation 2.
Letter to Management                                                                      Page 16
                              Memorandum on Internal Control


Accounting for Employee Benefits Could Be Enhanced

BFO could improve compliance with U.S. Standard General Ledger (USSGL)
requirements by accounting for certain employee benefits directly to the required
account and eliminating the reclassification of that expense at year-end.

The USSGL provides guidance concerning when to charge expenses to a benefit
expense account or an operating expense account. It also provides guidance on
whether or not the expense should be considered Federal (transactions between
Federal agencies) or non-Federal (transactions with the public).

During the audit, we observed that BFO initially charges employee benefit expenses
to an operating expense account, classified as “Federal” and then reclassifies most
of the expenses to a benefit expense account, classified as “non-Federal.”

Recommendation

We recommend that BFO:

          5. review applicable guidance for the accounting treatment of employee
             benefits and revise the RRB’s accounting treatment as necessary to
             comply with USSGL requirements.

Management’s Response

BFO has agreed to review applicable guidance for the accounting treatment of
employee benefits and revise the RRB’s accounting treatment as necessary. The
full text of management’s response is presented as Attachment 1 to this
memorandum.


Password Protection Not Fully Effective

During our audit we observed that password security over the electronic
spreadsheets that comprise the financial statement working papers, including the
financial statements, is not fully effective. The password structure for the
spreadsheets is widely known and, as a result, is largely ineffective in protecting
files from accidental erasure or unauthorized changes. GAO Standards for Internal
Control in the Federal Government states that access to resources and records
should be limited to authorized individuals, and accountability for their custody and
use should be assigned and maintained. 8



8
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 15.
Letter to Management                                                                   Page 17
                           Memorandum on Internal Control

Recommendation

We recommend that BFO:

        6. review the password security for the BFO working papers and make
           changes as necessary to ensure that the working papers are adequately
           protected.

Management’s Response

BFO has agreed to review the password security for the BFO working papers and
make changes as necessary. The full text of management’s response is presented
as Attachment 1 to this memorandum.


Separation of Duties for Federal Financial System (FFS) Administration
Sometimes Over-ridden

During our audit, we observed that BFO has not ensured adequate separation of
duties. Separation of duties is a key element of internal control. Key duties and
responsibilities need to be divided or segregated among different people to reduce
the risk of error or fraud. This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transactions,
and handling any related assets. No one individual should control all key aspects of
a transaction or event. 9

FFS System Administrator Approves Some Transactions

BFO is the organizational owner of FFS, and the FFS system administrator is an
employee in the Accounting, Treasury and Financial Systems Division of that
organization. During the audit, we observed that the FFS system administrator
prepared or approved certain transactions in the FFS system. In addition, the FFS
system administrator also cancelled transactions for someone else.

A similar issue regarding the FFS system administrator’s approval of transactions in
FFS was previously addressed in FY 2006.10 In response to a previous OIG
recommendation, BFO adjusted the FFS security setting to ensure that one
individual cannot enter and approve the same transaction. In January 2007, BFO
issued a policy prohibiting administrators of systems owned by BFO from entering,
approving or modifying transactions. Although BFO has implemented controls to
ensure separation of duties, we were advised that in special situations the controls
are circumvented to allow overlapping responsibilities.

9
 “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page 14.
10
  “Fiscal Year 2006 Financial Statement Audit Letter to Management,” OIG Report #07-01,
February 9, 2007, Recommendation 14, page 23.
Letter to Management                                                         Page 18
                        Memorandum on Internal Control

Separation of Duties Is Sometimes Circumvented

An employee in BFO had access privileges to both enter and approve transactions
including the transfer of funds. The approval access has since been revoked,
however during the time period in which it was allowed, it was inconsistent with the
principle of separation of duties.

Although BFO has implemented FFS controls that provide for separation of duties,
BFO management has advised us that in special situations the system administrator
changes the FFS settings thus circumventing the controls.

Recommendations

We recommend that BFO:

       7. enforce the existing policy prohibiting the FFS system administrator from
          entering, approving, or modifying transactions processed by that system;
          and
       8. enforce separation of duties within FFS to prevent employees from
          approving transactions that they have entered.

Management’s Response

BFO has agreed to train and provide FFS access to two additional BFO staff who
will then be able to enter or approve FFS transactions as necessary if the usual staff
are on leave or otherwise unavailable. The full text of management’s response is
presented as Attachment 1 to this memorandum.


Controls Over Social Insurance Reporting Needs Improvement

The Bureau of the Actuary has not implemented a documented review and approval
process that includes all schedules delivered in connection with the annual audit of
agency financial statements.

We also observed that the documented description of control objectives, risks and
techniques prepared as part of the RRB’s management control review program is
not fully descriptive of the Bureau of the Actuary’s process for social insurance
reporting.
Letter to Management                                                           Page 19
                         Memorandum on Internal Control


Recommendations

We recommend that the Bureau of the Actuary:

       9. implement an expanded review and approval process to ensure that all
          statements and supporting schedules are accurate and consistent; and
       10. review and update management control review documentation.

Management’s Response

The Bureau of the Actuary concurred with the recommendations. The full text of
management’s response is presented as Attachment 2 to this memorandum.


Documentation for Legal Representation Process Needs Improvement

The Office of General Counsel has not fully implemented new controls intended to
ensure the adequacy of support for legal representations offered in connection with
the financial statement audit.

In response to a prior OIG recommendation, the Office of General Counsel has
developed written procedures for the legal representation process. These
procedures provide for the retention of documentation to support estimates of
potential financial impact, the determination of likelihood of loss, and a brief
description of the litigation. This documentation is to be collected and retained in a
single file supporting the annual representation letter.

During our audit, we observed that the file for the current-year representation letter
was not complete. The file documentation retained did not always address every
required element for each pending lawsuit.
Letter to Management                                                                      Page 20
                            Memorandum on Internal Control


Recommendation

We recommend that the Office of General Counsel:

        11. strengthen controls to ensure compliance with procedures for the
            collection and retention of support for the legal representations.

Management’s Response

The Office of General Counsel has agreed to strengthen controls to ensure
compliance with procedures for the collection and retention of support for legal
recommendations. The full text of management’s response is presented as
Attachment 3 to this memorandum.


Medicare Premium Penalty Rates at Risk of Error

Sampling tests of Medicare premium accuracy identified a beneficiary who had
been overcharged $5,600 as a result of examiner error in assessing a penalty for
delayed enrollment. 11,12

The RRB computes the premium paid by Railroad Retirement beneficiaries who are
qualified to enroll in the Medicare Part B program. The premium may be increased
by a penalty amount if the beneficiary does not enroll in Medicare Part B upon first
becoming eligible. Among the exceptions to this rule are persons covered by group
health insurance plans who may elect to delay enrollment without penalty.

The OIG reviewed a random sample of 200 annuitants with Medicare premiums.
Four of the 200 sample annuitants had been charged a penalty because they did
not enroll within the required timeframes. We asked the Office of Programs to
recalculate the amount of the penalty that had been charged in each of the four
cases. In one of the four cases, the RRB had assessed a 60% penalty which
incorrectly increased the premium paid by the annuitant. The annuitant was
overcharged a total of $5,600 during a period of more than 12 years.




11
  During FY 2008, the OIG’s authority to audit the RRB’s Medicare Program was restored permitting
the OIG to audit premium collection activity for the first time since 1997.
12
   We tested the accuracy of Medicare Premiums by testing the premium paid by 200 randomly
selected beneficiaries from a universe of approximately 570,000 as of April, 2008. We identified one
error resulting from an incorrect assessment of a penalty due to delayed enrollment which was one of
the four such penalty cases in the sample.
Letter to Management                                                                      Page 21
                            Memorandum on Internal Control


The incorrect penalty had been applied because the annuitant’s group coverage
had not been considered when the premium amount was originally determined even
though evidence of group health insurance coverage had previously been filed in
the claim folder.

The error identified by the audit disclosed a risk associated with late enrollment
penalties. We estimate that approximately 1,063 beneficiaries may presently be
affected with a cumulative potential monetary impact of approximately $600,000 13 .

Recommendations

We recommend that the Office of Programs:

        12. identify and correct cases in which an incorrect Medicare Part B penalty
            is being collected; and
        13. assess the current control environment to determine what action may be
            necessary to minimize the risk of errors in Medicare Part B premiums.

Management’s Response

The Office of Programs has agreed to review additional cases and determine the
level of error in the universe of cases with penalty rates. If the rate of error falls
below their standards, they will determine how to handle cases on the rolls as well
as how to reduce the level of errors on future cases. The full text of management’s
response is presented as Attachment 4 to this memorandum.




13
  The RRB’s Office of Programs reports that as of September 2008, there were 4,252 beneficiaries
currently being charged a penalty. The estimated number of errors and related monetary impact are
based on the error experience of the sample applied to the universe of penalty cases provided by the
Office of Programs, which we relied on without further testing.
                                                                         Page 22

                                                                         Attachment 1
                UNITED STATES GOVERNMENT                                            FORM G-llif   [1-12]

                                                                  RAILROAD RETIREMENT BOARD
                MEMORANDUM

                                                                   MAR 17 ZOOS
TO        :   Letty B. Jay
              Assistant Inspector General for Audit


FROM      :   John M. Walter
                                  II~
                                 Tr..­
                                         /JJ. # dt=-
              Chief of Accounting, Treasury and Financial Systems
              THROUGH: Kenneth P. Boehne .           '~d'. ~ ./J .# /
                            Chief Financial Officer ~ ~~


SUBJECT:      Letter to Management - Fiscal Year 2008 Financial Statement Audit



Thank you for giving us the opportunity to comment on your draft Letter to Management.
The financial reporting process has expanded responsibilities and shorter time frames.
The process has expanded from preparation of financial statements within 6 months of
the fiscal year-end, to publication of an annual Performance and Accountability Report
within 45 days of the fiscal year-end. In addition, during approximately the same time
period the agency is required to complete intragovermental reporting and provide the
Department of the Treasury with detailed fiscal yearend data, via the Governmentwide
Financial Report System, that is used to prepare the Financial Report of the United
States Government.

We have reviewed the above draft memorandum dated March 3, 2009, and our
comments on recommendations are as follows:

Recommendations:

We recommend that BFO:

      1.	 reconcile benefit payments as recorded in the general ledger to the
          benefit payment subsystem.

         Accounting is reviewing the Office of Inspector General identified cost­
         effective reconciliation process and plans to implement it. Target date:
         8/31/09.
                                                                  Page 23

                                  -2­                             Attachment 1


2.	 ensure that the procedure for voucher approval includes tests of
    voucher accuracy.

   Accounting plans to ensure that the procedure for voucher approval includes
   tests of voucher accuracy. Target date: 9/30/09.

3.	 implement a statistical methodology to measure the quality of voucher
    preparation.

   Financial Management plans to implement a statistical methodology to
   measure the quality of voucher preparation. Target date: 9/30/09.

4.	 review the listing of required voucher documentation to ensure BFO
    staff will have reference to complete requirements.

   Accounting plans to review and update the listing of required voucher
   documentation. Target date: 8/31/09.

5.	 review applicable guidance for the accounting treatment of employee
    benefits and revise the RRB's accounting treatment as necessary to
    comply with USSGL requirements.

   Accounting plans to review applicable guidance for the accounting treatment
   of employee benefits and revise the RRB'saccounting treatment as
   necessary. Target date: 8/31/09.

6.	 review the password security for the BFO working papers and make
    changes as necessary to ensure that the working papers are adequately
    protected.

  Accounting plans to review the password security for the BFO working papers
  and make changes as necessary. Target date: 8/31/09.

7.	 enforce the existing policy prohibiting the FFS system administrator
    from entering, approving, or modifying transactions processed by that
    system.

  We understand that there were two instances found where the FFS Systems
  Administrator (SA) either prepared or approved transactions that were posted
  to the general ledger. In each of these instances, the SA said that hE( was
  asked to either prepare or approve transactions because the usual staff was
  not present and the timing of the transaction was critical. The SA is aware of
  the January 2007 policy and an FFS report has been prepared that shows
  since January 9,2009, the SA has not prepared, approved or deleted
  transactions that were posted to the general ledger. The SA has forwarded
  copies of the report to your office and will submit additional reports as
  requested.
                                                                         Page 24

                                          -3-                            Attachment 1




         . In addition, we will train and provide FFS access to two additional BFO staff
           who will then be able to enter or approve FFS transactions as necessary if the
           usual staff are on leave or otherwise unavailable. This should help eliminate
           any further problems with separation of duties.· Our target completion date is
          4/30109.

       8.	 enforce separation of duties within FFS to prevent employees from
           approving transactions that they have entered.

          We understand that there were four instances found where the preparer was
          also the approver of transactions. In these instances, the transactions
          occurred to satisfy immediate funding requirements for travel, medical exams
          and other services during periods of time when no other staff was available
          for data entry purposes. The SA is aware of the policy and an FFS report has
          been prepared that shows since October 1, 2008, staff have not prepared and .
          approved the same transactions. The SA has forwarded copies of the report
          to your office and will submit additional reports as requested.

          In addition, we will train and provide FFS access to two additional BFO staff
          who will then be able to enter or approve FFS transactions as necessary if the
          usual staff are on leave or otherwise unavailable. This should help eliminate
          any further problems with separation of duties. Our target completion date is
          4/30109.



cc:	 Ed Fleming, Accounting Officer
     Rich Lannin, Senior Accountant
     Liz Stubits, Accountant
     Edie Natividad, Accountant
     Kris Garmager, Financial Systems Manager
     Hattie Fitzgerald, Financial Compliance Officer
     Georgia Blalock, Budget Officer
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst
                                                                    Page 25

                UNITED STATES GOVERNMENT
                                                                    Attachment 2     FORM G·115f (1-92)

                                                                     RAILROAD RETIREMENT BOARD
                MEMORANDUM

                                                                   March 9, 2009




TO:         Letty Benjamin Jay
            Assistant Inspector General for Audit

FROM:       Frank J. Buzzi
            Chief Actuary

SUBJECT: Draft Letter to Management
         FY 2008 Financial Statement Audit


Thank you for the opportunity to review and comment on the subject draft letter to
management.

We concur with recommendations 9 and 10. Our target completion date for these
recommendations is July 31, 2009.


cc: Chief Financial Officer
                                                                             Page 26

                                                                             Attachment 3
              UNITED STATES GOVERNMENT                                                      FORM 0-l1Sf(I-92)

                                                                          RAILROAD RETIREMENT BOARD
              .MEMORANDUM




                                                          March 4, 2009


To: Letty Benjamin Jay
    Assistant Inspector General for Audit
From: Steven A.   Barthol~ ~._" ...­
       General   Couns~~A
                  /                                   >




Subject: Draft Letter to Management
         FY 2008 Financial Statement Audit


In response to your memorandum dated March 3, 2009, I have reviewed the draft Letter
to Management and, in particular, the recommendation concerning the Office of General
Counsel.

I concur with your recommendation that the Office of General Counsel strengthen
controls to ensure compliance with procedures for the collection and retention of support
for legal representations.

I previously submitted written procedures covering this area which were accepted by
your office. However, in reviewing materials in connection the audit of financial
statements, yoU hoted that supporting documentation concerning the estimate of potential
financial impact and, d~scription of litigation was not sufficient in all cases. By
memorandum issued March 4,2009, I have directed all attorneys in the Office of General
Counsel to submit to me by April 1, 2009 a report of all litigation each of them handles.
The report is to include the name of the case, the court in which filed, the date of filing, a
description of the case, a cost estimate with explanation of the basis for the estimate, the
likelihood of loss, and the currept status of the case. I also directed that the same
information be reported to me dn a monthly basis going forward.

With the action I have taken, I believe that your recommendation, numbered 11, will be
resolved by May 1, 2009.
                                                                               Page 27

                                                                               Attachment 4


                   UNITED STATES	 GOVERNMENT                                                   FORM G-llSf (1.92)
                                                                           RAILROAD RETIREMENT BOARD
                  MEMORANDUM

                                                                                 MAR 16 2009

TO:	           Letty Benjamin Jay
               Assistant Inspector General for Audit

FROM:          Catherine A. Leyser   C£:- /1'.£'7':::

               Director of Assessment and Training#~
THROUGH:	 Dorothy Isherwood
               Director ofPrograms

SUBJECT:       Draft Report - Letter to Management, FY 2008 Financial Statement Audit



Recommendation   The Office of Programs should identify and correct cases in which an
12               incorrect Medicare Part B penalty is being collected.


OP response	     The OIG reviewed 4 cases and found I error which was an examiner error
                 that happened 12 years earlier. On that basis, 1,073 erroneous cases and
                 $600,000 are projected to be incorrect. We will review additional cases and
                 determine the level of error in the universe of approximately 4,300 cases with
                 penalty rates. If the rate of error falls below our standards, we will determine
                 how to handle the cases on the rolls as well as how to reduce the level of
                 errors on future cases. If additional actions to review more cases are
                 warranted, we will develop an a~tion plan to complete that review as well as a
                 mechanism to track the monetary impact of the audit recommendation. Ifno
                 additional actions are warranted, we will indicate that in our report and
                 provide any monetary impact attributable to cases found in the study to the
                 audit recommendation. In that case, there would be no further monetary
                 tracking.

                 We will complete the evaluation and determine ifthere will be additional
                 actions by December 31, 2009.
                                                                            Page 28

                                                                            Attachment 4




Recommendation	 The Office of Programs should assess the current control environment to
13               detennine what action may be necessary to minimize the risk of errors in
                 Medicare Part B premium~


OP response      See response to Recommendation 12. We will complete the assessment by
                 December 31,2009.
